2311 Douglas Street i E-Mail Address:
Omaha, Nebraska 68102-1214 L ega I B rt i efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-765

MICHAEL FAUST, in his official capacity as Director of
the Arizona Department of Child Safety,
Petitioner,

Vv.
B.K., by her next friend Margaret Tinsley, et al.
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE SECRETARIES’ INNOVATION
GROUP IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

John J. Bursch

Counsel of Record
BURSCH LAW PLLC
9339 Cherry Valley

Ave SE, #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 15th day of January, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LS Ouida

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 30314
SERVICE LIST

Counsel for Petitioner:

Paul D. Clement

Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Respondents:

Joel W. Nomkin
Counsel of Record
Perkins Coie LLP
2901 North Central Avenue
Suite 2000
Phoenix, AZ 85012
(602) 351-8185
jnomkin@perkinscoie.com
